Executive Report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing ServicesGrants to the Township of Cheltenham Township, Pennsylvania Police Department
GR-70-00-003December 13, 1999Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the U.S. Department of Justice, Office of Community Oriented Policing Services (COPS), to the Cheltenham Township, Pennsylvania, Police Department (Cheltenham).  Cheltenham was awarded a total of $300,000 in COPS grants to hire four full-time sworn police officers.

Cheltenham violated some grant conditions.


Cheltenham requested reimbursement based on estimated figures from the Financial Status Reports.  Since the reimbursements were based on estimated costs rather than actual costs and were unsupported, we question the $150,000 Cheltenham received as reimbursement.
	Cheltenham did not submit all of the required Financial Status Reports.  Additionally, some of the reports were inaccurate, not dated, and not submitted timely.

These items are discussed in the Findings and Recommendations section of the report.  The Scope and Methodology we used to perform the audit appear in Appendix II.